<pr1

Cj
No.

-5 727
Supreme Cour:. o..:
FILED

IN THE

SEP 0 9 mu

SUPREME COURT OF THE UNITED STATES

Frank f.i snp.rns #10132-040

OFFICE OF THE ’ :.

— PETITIONER

(Your Name)
vs.

UNITED .STATES OF AMERICA — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Frank Cisneros #10132-040

(Your Name) •
Marianna

FC.T P.0

Box 7007

(Address)
Marianna

FT. 32446

(City, State, Zip Code)

RECEIVED
(Phone Number)

SEP ‘ 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION(S) PRESENTED

(1) Whether an attorney's admitted failure to investigate or present
a defendant's affirmative withdrawal from a conspiracy

beyond

the applicable statute of limitations period as a defense, with
no other strategic decision but to. plead guilty, is unreasonable
or in conflict with established federal law?
(2) Whether an enhancement of a defendant's sentence is based upon
conduct prior to a withdrawal and the statute of limitations
period, and results in an additional amount of time in prison,
is unreasonable or in conflict with federal law?
(3) Whether the courts' denials of an affirmative withdrawal from
i

a conspiracy as a viable defense, after they conceded that with­
drawal occurred beyond the applicable statute of limitations
period, is unreasonable or conflicts with clearly established
federal law?

LIST OF PARTIES

P] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

i

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-6

REASONS FOR GRANTING THE WRIT

7-20

CONCLUSION

2JQ

INDEX TO APPENDICES

APPENDIX A - Opinion of the United States court of appeals

APPENDIX B - Opinion of the United States district court

APPENDIX C - Grder/denying;rehearing

APPENDIX D - Change of plea hearing excerpts

APPENDIX E - Affidavit of counsel, Raymond G. Buffmyer

APPENDIX F - Evidentiary hearing excerpts
APPENDIX G - Detention hearing transcripts excerpts

TABLE OF AUTHORITIES CITED
CASES
Berger v U.S
295 U.S. 55 S. Ct. 79 L. Ed. 1314 (1935

Page Number
19

Bigelow v Williams
357 F. d 562 (6th Cir.'-2004)

:11

Brown v U.S.
261 F. App.’x 866 (6th Cir 2008)

9, 10

Combs v Coyle
205 F. 3d (6th Cir 2000)

8

Horton v Zant
941 F. 2d (11th Cir 2000)

8, 13

Kimmelman v Morrison
477 U.S. 106 S. Ct. 2574, 91 L. Ed. 2d 305 (1986) 8
Lafler v Cooper
566 U.S. 132 S. Ct. 1376, 182 L. Ed. (2012)

8

Martin v U.S.
889 F. Ed (6th Cir 2018)

7

Rodriguez-Penton v U.S.
905 F. 3d (6th Cir 2018)

12

Strickland v Washington
466 U.S. (1984)

8, 10

Swiley v Jackson
2020 U.S. Dist. LEXIS 107571 (6th Cir)

8,) 13

U.S. v Cronic
466 U.S. 104 S'. Ct. 2039, 80 L. Ed 3d (1984)

12

U.S. v-;-Dents ;> ->
1992 U.S. App LEXIS 28982 (6th Cir)

9

U.S. v Glover
121 S. Ct. 148 L. Ed 2d

8, 13

U.S. v Hyde
225 U.S. S. Ct. (1912)

16'.

U.S. v Johnson
737 F. Ed. (8th Cir 2013)

9

U.S. v Lash
937 F. 2d (6th Cir 1991)

9, 10, 16, 17

TABLE OF AUTHORITIES CITED
CASES
U.S v Ledbetter
2013 U.S. Dist. LEXIS 106063 (6th Cir)

Page Number
9, 10, 15

U.S. v Lee
137 S. Ct., 198 L. Ed (2017)

12

U.S. v Makki
129 F. App'x 191 (6th Cir 2005)

9. 15

U.S. v Moody
958 F.3d 485 (6th Cir 2020)

9, 10, 15, 16

U.S v Smith 133 S. Ct., 184 L. Ed (2013

9, 10, 14, 15

U.S. v Wade
388 U.S. 87 S. Ct. 1926, 18 L. Ed 2d 1149 (1967)

8

Wiggins v Smith
539 U.S. 123 S. Ct. 2527, 156 L. Ed 2d (2003)

8, 11, 12

STATUTES AND RULES
18 U.S.a.. §3282
Referenced as Statute of Limitations (sol)

5, 7r9 i« 12-20

21 U.S.C. §841(a)

4

21 U.S.C. §846

4

28 U.S.C. §2255-.

6, 7, 18

18 U.S.C. §1962(d)

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
\xi For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix • A
the petition and is
[x] reported at ?fi?i ii.s. App.- t.f.xt9
.
J or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

iv

D(] reported at 2019 U.S, .Dtst. TEXTS 182749
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest , state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Amendment 6 Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the State and
and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confront­
ed with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, :and to have the Assistance of
Counsel for his defence.
18 U.S.C.. •§ ^3 282(a)
Offenses not capital (a) In general. Except otherwise expressly
provided by law, no person shall be prosecuted, tried, or punished
for any offense, not capital, unless the indictment is found or
the information is instituted within five years next after such
offense shall have been committed.
Amendment 5 Criminal actions-Provisions concerning-Due process of
and just compensation clauses.
No person shall be held to answer for a capital, or otherwise infamous crime

unless on a presentment or indictment of a Grand Jury

except in cases arising in the land or naval forces, or in the Militia

when in actual service in time of War or public danger; nor

shall any person be subject for the same offence to be twice put
in jeapordy of life or limb; nor shall be compelled in any criminal case to be a witness against himself

nor be deprived of life,

liberty, or property, without due process of law; nor shall priv­
ate property be taken for public use without-just compensation.
3

STATEMENT OF THE CASE
In Feruary of 2013 petitioner was-: specifically charged with conspir­
ing to commit racketeering acts going "back to the mid-1990's

UP

and through the time of the indictment or at least until 2012" App. D
>

3gs:4^?.y. in violation of 18 U.S.C.

§1962(d)(Count One) and conspir-

ing to possess with intent to distribute 5 kilograms or more of co­
caine from 2006-2012 in violation of 21 U.S.C.§§846 and 841(a)(Count
12; later changed to 14).
Against petitioner's desire, counsel sought and initiated coopera­
ting plea negotiations. These were terminated after counsel coerced
petitioner into proffering by threat of prison; "f or the:,res t^of your
life .App. F-

Eg.30, and when he could not answer the government's

questions they perceived petitioner was lying..
On March 1

2013 a detention hearing (DH) was held, and after evi­

dence was presented by both parties, the Honorable Judge Ellen
^armondy granted pre-trial release based upon the lack of violence
by petitioner, his lack of involvement, and evidence of his 1999
letters withdrawing from the conspiracy, App. G
In July of 2013

Pg60 .

after repeated attempts by counsel to convince pet­

itioner to cooperate and his refusal, counsel entered a frivilous
motion for a Kastigar Hearing, knowing it was not permissible, when
there were other permissible options available to determine the sufficiency of the evidence or if the court had jurisdiction over the
matter

and to put the prosecution's case to meaningful adversarial

testing. As counsel's choice was impermissible it was denied.
On October 7, 2013 petitioner attempted to proffer after counsel a-

4

gain misadvised petitioner that losing at trial would result in a
life in prison. Though the proffer did not go as bad as the first,
petitioner was still unable to answer many of the government's
questions, but the government agreed to dismiss Count Fourteen and
enter a motion on his behalf in exchange for his guilty plea to
Count One. On October 13, 2013 petitioner pled guilty. Sentencing
was scheduled for February 25

201.4.

After months of adjournments, and several other codefendants plead­
ing guilty, some agreeing to cooperate with the government, in May
of 2014 the government informed petitioner they would not be entering a motion on his behalf for his assistance, or for the fact that
others cooperated due to petitioner s cooperation. And a new sentencing date was set for June 17, 2014.
On June 9

2014 petitioner had major back fusion surgery and asked

counsel to adjourn his sentencing. Counsel requested an adjournment
but not nearly as far out as petitioner needed to fully recover. At
sentencing he was under heavy narcotic medication for pain.
At sentencing he was held responsible for 5 kilograms of cocaine,
including 555.97 grams of pre-withdrawal/statute of limitations
(sol) possession in 1998. He was also held responsible for 248 kilograms of a codefendants marij uana distribution, though petitioner
was not named in the marijuana conspiracy. This gave petitioner a
base.offense level of,; 32 and he was. enhanced 3 points for his
prewithdrawal/sol leadership^positions as well as 2 points for an enhancement for a firearm. Petitioner was given a 3 point reduction
for acceptance of responsibility, and after the court varied down
for the overstatement of the criminal history, he was sentenced
5

to the bottom of the guidelines of 210 months.
On May 12

2016 the Sixth Circuit court of appeals affirmed his

sentence and in April of 2017 petitioner entered his amended motion
to vacate, set aside, or correct

a sentence. Petitioner cited coun-

sel's deficient performance, failing to investigate and present his
withdrawal beyond the sol period, and a number of counsel's misadvices that infected his decision making process.
Though the District court held an evidentiary hearing to resolve
the factual dispute about whether counsel misadvised petitioner if
he was convicted at trial he would be sentenced to life in prison,
they again denied his §2255 and a certificate of appealability (COA)
even after counsel testified he advised petitioner the government
"carry the keys to your-- locking [you] up for the rest of your
life." App. F, Pg 30. The District court deciding even if counsel
performed deficiently, without a viable defense petitioner could
not show prejudice. The District court ruling petitioner'.s withdraw­
al was not a viable defense because it was irrelevant to his guilt
and sentence, even though it was beyond the applicable sol period.
On January 28, 2021 the Circuit court denied petitioner's request
for a COA, agreeing with the District court's decision that peitioner15-1.999 withdrawal was not a viable defense, though the Circuit
court deemed his withdrawal was by incarceration alone. Petitioner
requested a rehearing and rehearing en banc, which were both denied
on April 19, 2021. App. C.

6

REASONS FOR GRANTING THE PETITION

Petitioner asserts the District and Circuit courts (the counts) made
decisions conflicting with previous Sixth Circuit

Sister Circuit,

and Supreme Court precedent, with regards to a withdrawal beyond the
applicable statute of limitations (sol) period as a viable defense.
These decisions were-made in order to deny petitioner's §2255 and a
Request for a Certificate of Appealability (COA).
Petitioner's §2255 surrounded a claim of ineffective assistance for
counsel's admitted failure to investigate and present petitioner's
withdrawal beyond the applicable sol period defense

which the gov­

ernment and courts conceded occured in 1999. As the burden for establishing an entitlement to an evidentiary hearing is relatively
light, and petitioner's §2255 and the files and records of the case
contain records establishing his claims

Martin v-U.S. 889 F. 3d

(6th Cir 2018); the heart of this issue lies with the courts

deci­

sions sa:.far departing from the accepted and usual course of judig4£ 1 :.p^oceedr;f&g$:anshconf Tictijig;with.ebearjy

established federal law.

Petitioner asserts this case is of national importance as, allowing
these decisions to stand would cause a regressive shift promoting
further violation of a defendant's most basic constitution! rights
using these decisions to diregard

and essentially nullify

prece-

dent of clearly established federal law, as determined by this
Supreme Court. Therefore

an- exercise of this Court's supervisory

power is in order to avoid further departure and the harm it will
cause to others.

Swiley v Jackon U.S. Dist. LEXIS 107571 (6th Cir 2020), relying on
Strickland v Washington 466 U.S. 668, 687-96 (1984), and Wiggins v
Smith 539 U.S. 123 S. Ct. 2527, 156 L.■Ed. 2d (2003):
It is well established that "[Cjounsel has a duty to make reason­
able investigations or to make a reasonable decision that makes
particular investigations unnecessary." Strickland 466 U.S. at
691. The duty to investigate derives from counsel's basic func­
tion, which is "to make the adversarial testing process work in
the particular case." Kimmelman v Morrison 477 U.S. 365, 384,
106 S. ct 2574, 91 L. Ed 2d 305 (1986)(quoting Strickland 466
U.S. at 690)..."In any ineffectiveness case, a particular deci­
sion not to investigate must be directly assedsed for reasonable­
ness in all circumstances, applying a heavy measure of deference
to counsel's judgements." Strickland 466 u.S. at 691. "The rele­
vant question is not whether counsel's choices were strategic,
but were they reasonable." Roe-v Flores-Ortega 528 U.S. 470, 481
120 S. ct. 1029, 145 L. Ed. 2d 985 (2000)... A purportedly stra­
tegic decision is not objectively reasonable "when the attorney
has failed to investigate his options and make a reasonable
choice between them." Horton v Zant 941 F. 2d 1449, 1462 (11th
Cir 1991)(cited in Combs v Coyle 205 F. 3d 269 288(6th Cir 2000).
In Wiggins v Smith 539 U.S. 510, 524-29, 123 S. ct. 2527, 156 1.
Ed. 2d 471 (2003), the Supreme court held that the petitioner
was entitled to a writ of habeas corpus because his counsel had
failed to conduct a reasonable investigation into potentially
mitigatipg evidence with respect to sentencing. Id. According to
tje Court, "Counsel chose, to abandon their investigation at an
unreasonable juncture making a fully informed decision with respect to sentencing strategy impossible." Id. at 527-28;
Lafler v Cooper 566 U.S. 132 S. Ct. 1376, 182 LED 201, 398:
The right to counsel does not begin at trial. It extends to "any
stage of the prosecution, formal or informal, in court or out...
U.S. v Wade 388 U.S. 218, 206, -87 S. ct. 1926, 18 L. Ed. 2d 1149
(1967)... Even though sentencing does not concern the defendant's
■guilt or innocence, ineffective assistance of counsel during a
sentencing hearing can result in Strickland prejudice because
"any amount of [additional] jail time has Sixth Amendment signi­
ficance." U.S. Glover 121 S. Ct. 696. 148 L. Ed 2d 604.
FACTUAL BACKGROUND
Petitioner was arrested on February 12, 2013

and from the first de-

fense strategy meeting on February 17, 2013, there was a significant
disagreement between petitioner and counsel. The substance of this
disagreement surrounded the fact that pettioner believed he should

8

not have been charged, or had a significant and reasonable defense
against charges presented, while counsel denied teh viability of pej

tioner’s one line of defense. In such, according to the law, peti-^
oner was correct.
The law if the Sixth Circuit is clear that "defendant s have the
burden of proving withdrawal because it is a$ affirmative de­
fense!" U.S. v Dents 1992 U.S. App. LEXIS 28982 (quoting U.S. v
Lash 937 F. 2d 10^7, 1083 (1991).
Updated in U.S. v Ledbetter U.S. Dist. LEXIS 106063 (2013)
Withdrawal from a conspiracy constitutes an affirmative defense
for which Defendants bear the burden of proof. U.S. Smith 133 S.
Ct. at 720. To prevail, Defendants must overcome "well-settled
law that oijjce a conspiracy is established. ..its members contin~
ue to be conspirators until there has been a? affirrnati.ve show­
ing that they have withdrawn-" Brown v u,s* 261 F. App'x at 866
(quotation omitted). This typically occurs through "either a
full confession to the authorities" or "communications] to...
co-conspirators that [the defendant] has abapcoijied the enter­
prise* a£fld its goals."lid.
* ' Inicarcerationj, staring alone, does Sot sonstitute withdrawal
from a conspiracy. See U.:S.'v Makki a29 F. App’x 191(holding
that withdrawal requires, an affirmative act, "even if the defen­
dant is arrested or imprisoned"). None of this is to suggest
that
Defendants’ incarceration ^s IRRELEVANT to withdrawal...
To prevail, however, Defendants must prove "somehting more than
[mere] incarceration* U.S. v Johnson 737 F. Ed at 5^6 (2013) .
The [Ledbetter] parties agreeEd] 18 U.S.C. §3282 supplies a fiveyear statute of limitations for Count Oije. Therefore, Defendants’
argument hinges of whether they accomplished or withdrew from'
the alleged'RICO conspiracy more tharp five years before the gov­
ernment filed the first indictment, which occurred o^ Jujie 24,
2014. (Doc. 14). Put differently, if Defendants accomplished or
withdrew from the alleged conspiracy before June 24, 2009, th^n.
Count (^e is time-barred, therby providing "acomplete defense to
prosecution*" Smith 133 S. Ct at 714, 717, 184 L. Ed 3d 570
18 U.S.C. §3282
"[I]s a law that puts a limit on how much time the government has
to obtain am indictment.. .Thus a conviction cann°f be based uporj
conduct that occured before [the sol] date!..Though you may CON4
SIDER the defendant s conduct prior to the sol to EVALUATE the
defendant's conduct WITHIN THE SOL and whether THAT CONDUCT WITH­
IN THE SOL establishes defendant's guilt beyond a reasonable
doubt. You .CANNOT USE ANY PRE-SOL CONDUCT FOR'ANY OTHER'PURPOSE."
U.S. v.Moody 958 F. 3d 485 (2020) (EMPHASIS mine).

9

At the first defense strategy meeting petitioner informed counsel
that subsequent to his 1998 arrest he affirmatively acted to defeat
or disavow the purposes of the conspiracy, Lash 937 F. 2d 1077

1083

(1991), by communicating his withdrawal.to^co-conspirators via let­
ters sent from jail in 1999, and his full confession and Grand Jury
testimony in 2000, Brown 261 F. App'x 866 (2008). Petitioner also
informed counsel that Holland Detectives Rudy Mascorro and Albino
Rios obtained these letters through their 1998-99 investigation of
petitioner, thus the government knew of petitioner's 1999 withdrawal.
Though petitioner was unaware of the law concerning his long past
withdrawal he informed .counsel he withdrew and;thatthe
front of the Grand Jury. With this knowledge

testified in

'counsel... denied pet-

itioner's withdrawal, that was plainly beyond the sol, as a viable
defense and sought a cooperating guilty plea, against petitioner's
desire to present a defense

and entirely failed to subject the pro-

secution's case to meaningful adversarial testing. Cronic 466 U.S.
at 659. The law provides?petitioner's withdrawal began the running
of the five-year sol period under §3282, making the ..end of 2004 the
effective sol date barring prosecution, thereby providing a viable
defense to prosecution of that conduct. Ledbetter U.S. Dist. LEXIS
10606-3 (quoting U.S. v Smith 133 S. Ct.714, 717, 184 L. Ed 2d 570
(2013)),
In counsel's sworn affidavit he swears that petitioner s suggestion
to investigate Holland Police (HPD) records of evidence "would not
have revealed a viable defense for Mr. Cisneros on the RICO charges"
if

i

App. D, Pgs 2-3, this, in defense of his decision that made the imvestigation unnecessary. He -later testifies that he wasn’t aware of
10

petitioner's withdrawal until, as counsel testifies, "later on as I
was representing him he said, I was not in the gang. So :our defense
has to be

I was not in the gang. I quit the gang." App. F, Pg 44

Conversely, counsel's decisions making the .particular investigation
unnecessary are unreasonable and’untrue.
Transcripts of petitioner's March 1, 2013 detention hearing show
counsel was fully aware of petitioner's communication he withdrew
from the conspiracy from the beginning of his representation of pet­
itioner. The records show counsel s questions to a federal agent
concerning his withdrawal letter from 1999: "Just so the record is
clear

you're not aware of any letter that was put in by the gov­

ernment of an investigation form or anything from 1999 that he was
out of the gang?" App. G, Pg 21; and, "Are you aware in the last
five years he's held any titled positions... firearm sales or used by
him...been involved in any assaultive behavior?"; all to which the
federal agent responded to in the negative. Id at Pgs 15-16.
This proves counsel was untruthful in his testimony; that he was aware of evidence in support of the defense and that the information
provided did nothing to suggest further investigation was futile or
damaging, but in point of fact suggested just the opposite

as in

Bigelow v Williams 357 F. d 562 (6th Cir 2004), which reversed and
vacated for counsel's failure to investigate. And as thisJCourb held
in Wiggins^petitioner is entitled to relief when counsel fails to
inves tigate potentially mitigating evidence with respect to sentencing.
Judge Carmondy granting pre-trial release to,, petitioner

stating,

"I've heard no evidence of any,violent activity by this defendant. Now,
whether its too little too late that he tried to get out of the la-

11

tin kings, that will be determined in the

prosecution^ V App. G „ Pg 60,

proves petitioner's withdrawal was not futile or damaging. ■; ■_

r•

Instead of conducting a reasonable investigation into potentially
ex­
honorating. or.y in; the least, mitigating evidence with respect to sentencing, counsel unreasonably chose to abandon his investigation at
an unreasonable juncture, in order to convince petitioner to proffer
since he had done it before App.;.-, Pc, .yj; making an informed )decision
with respect to [any defense strategy,.including}, sentencing,strategy
impossible. Wiggins v Smith 539 U.S. 510, 524-29, 123 S. Ct. 2527, i
156 L. Ed. 2d 471 (2003). Counsel even testifies petitioner did
not
want to proffer, and that he wanted to go to trial; on three separate
occassions during EH App. F, Pgs 31

"33, 43 / but counsel's misadvice

infected petitioner s decision making process, Rodriguez-Penton v
U.S. 905 F. 3d 481, 488 (6th Cir 2018)(citing Lee
v U.S. 137 S. Ct
1958, 1967 (2017), Counsel actually Confessing he used the threat of
a life in prison to
coerce petitioner to proffer, a'duisibg.ihimithat
"they [the government] carry the keys to your— locking [you] up for
the rest of your life"clearly

shows counsel's mis­

advice infected petitioner s decision making process, andnhe. entires
ly failed to subject the prosecutions case to meaningful adversarial
testing at critical stages of the
proceedings, which presumes preju.dice under U.S. v Cronic 466 U.S. 648, 104 S. Ct. 2039,
80 L. Ed 3d
657 (1 984), though proof-.of-prejudice apparent by the denial of
pro­
per fair and just proceedings or the denial of the proceedings,: thfimselves, Lee 198 L. Ed;.2d (2017)(citing Roe v Flores-Ortega 528 U.S.
483, 120 S. Ct 1029, 145 L. Ed. 2d 985 ,

12

I

Petitioner was denied:
1) A proceeding to determine the sufficiency of evidence, or if the
court had jurisdiction over the matter due to the statute of limit­
ations under §3282, which could have been done by a number of per­
missible motions , rather than counsel's unreasonable choice to en­
ter a . mo tio.n- for: a Kastigar Hearing, that.vwas~.IMPERMISSIBLE under
petitioner's Pocket Immunity agreement. Counsel failed to investi­
gate his options, therefore could not have made a reasonable choice
between them. Swiley v Jackson 2020 U.S. Dist. LEXIS 107571 (quot­
ing Horton v Zant 941 F. 2d 1449y 1462 (11th Cir 2000);
2) The trial proceeding itself
Ct. 1029

Flores-Ortega 528 U.S. 483

120 S.

145 L. Ed 2d 985 (2000), if the court found it had both

jurisdiction, and the sufficiency of evidence to prosecute peti­
tioner;
3) A fair and just plea proceeding, where the government did not
use, or counsel objected to the use of petitioner's pre-withdrawal/
sol conduct: petitioner's 1998 possession of 543 grams of cocaine;
1996 leadership order of a firebombing (that never developed); and
pre-1999 firearm possession; to convice the trial court to accept
petitioner s guilty plea. This pre-:sol . conduct.' given;af ter trial
court stated

"That's a bunch of conclusions. Tell me what it is

specifically that would illustrate those conclusions." App. D, Pgs
6-7, 19;
4) Fair and just sentencing proceedings without using petitioner's
pre-sol leadership positions to enhance his base offense 3 levels
and producing 47 months of additional time in jail proving Sixth
Amendment significance. Glover 121 S. Ct. at 696. App. E, Pg 13.

13

Though petitioner's withdrawal well beyond the applicable sol period
was plain, and the courts should have concluded so and granted re­
lief for the trial court s failure to apply the requisite weight
and application provided by law

it was counsel's obligation to pre­

sent petTt;ioner':s withdrawal beyond the sol defense to subject the
prosecuition's case to meaningful adversarial testing. The record
is ciearrcounsel did not, and.did not provide effective assistance
of counsel prescribed by the Sixth Amendment, according to Sixth
Circuit precedent and Supreme Court ruling.
The record shows petitioner presented clear evidence substantiating
his withdrawal and counsel's failure to investigat;e.':and present his
withdrawal to the courts throughout his §2255 proceedings. As the
courts denied petitioner's withdrawal in order to deny his ineffec­
tive assistance of counsel claims
within the courts

the heart of the matter lies

decisions contrary, to; theiryowi} concessions of

petitioner's long past withdrawal

and more importantly, : conUnary -

to clearly established federal law as- determined by the Supreme
Court in United States v Smith 133 S. Ct. 184 L. Edi (2013);
A defendant who withdraws outside the relevant statute-of-limitations period has a complete defense to prosecution...regardless
of'-whenythe -purported, withdrawal-took .place. ..v[W] ithdraw;ai, -terr■■■
minates the defendant's liability for post-withdrawal acts of
co-conspirators [afiki] also starts the clock running on the time
within which the defendant may be prosecuted, and provides a
complete defense when the withdrawal occurs beyond the applicable
statute-of-limitations period... Thus [] union of withdrawal with
a statute-of-limitations defense can free the defendant of cri­
minal liability. Id. at 574-78
PETITIONER'S ARGUMENTS
To "withdraw" in common language is defined "to terminate one s participation in or use of something" (Merriam-Webster s Dictionary).

14

The courts concede petitioner's withdrawal was well beyond the ap­
plicable sol period in 1999..App. A, Pg 7; App. B, Pg 12. The fact
they had knowledge of a"letter put in by the government... from 1999
that he was out of the gang?" App. G, Pg 21 and failed to use his
1998 arrest or 2000 full confession as the relevant withdrawal date
proves their concessions-of his 1999 withdrawal came by way of his
affirmative showing he withdrew from the conspiracy, Brown 261 F.
App'x 866 (2008), by his communication to co-conspirators.ild. =/;
As such, according to the law, they must also concede Competitioner
the requisite weight and application of the law that his affirma­
tive withdrawal provides a complete therefore viable defense. Led­
better U.S. Dist. LEXIS 106063 (quoting Smith 133 S. Ct. at 5,74) .
Contrary to their concessions

and conflicting with Sixth Circuit

and Supreme Court prcedents, the District court contends petition­
er's withdrawal is meritless
and sentence,.App. B

because its irrelevant to his guilt

Pg 12, and the Circuit court contends peti-:

tioner s -wd-thrchrawal was by incarceration alone, and not a viable
defense .. And,because it was not a viable defense counsel could not
have been ineffective, even if his performance was deficient, But,
as withdrawal requires an affirmative act

"even [though]the de­

fendant is arrested or imprisoned," Ledbetter 106063 (citing Makki
129 F. App'x 191); the Circuit: court's contention, petitioner^'s with­
drawal was by incarceration alone
federal law. Likewise

is in conflict with established

a withdrawal with a sol defense can free the

defendant of criminal liability

Smith 184 L. Ed. 575-78; and .under

Sixth Circuit court instruction in Moody

"a conviction cannot be

based upon conduct that occurredobefore [the
15

sol :]

date,"

■ and, "it CANNOT BE USED FOR ANY OTHER PURPOSE [such as to enhance a
defendant’s sentence]." id at 485 (EMPHASIS mine).
Contrary to the law

the government used.*,

and the trial court ac-

cepted, petitioner's 1998 possession of 543 grams of cocaine as an
element of the offense, App.'B, Pg 3

i

and based petitioner's con­

viction upon that conduct, App. d, Pg 6-7. Moreso

in further vio-

lation of the law, petitioner's pre-sol leadership positions • were
used to enhance his base offense 3 levels, App. 'E, Pg:U3, even after
federal agent Yandle testified petitioner had not held any titled
positions in the five years prior to the first indictment filed. App %
This led to a sentence of 47 additional months in prison, which in
itself has Sixth Amendment significance

Glover supra at 203, 121

S. Ct. 696 f 148 L. Ed. 2d 604, thus proving petitioner's withdrawal was significant to his sentence as well as his guilt

therefore

was in fact a viable defense to the prosecution in his case.
Furthermore, the courts reasoned Defendant clearly rejoined the Hlk
and its activities in 2008, App.- A, Pg 7, App. B, Pg 25

and the

District court unreasonably applied "[T]he law.is clear a defend­
ant s actions after a withdrawal can negate the withdrawal. See e.
• g- U.S. v Lash 937 F.3d 1077, 1084 (1991)('Continued acquiescence
[to the conpiracy] negates the withdrawal.]')(citing U.S. v Hyde
225 U.S. 347, 371-72 (1912)" App. B, Pg 25. Conversely

there are

several problems with the court's application of the law.
The courts' concessions of petitioner
s withdrawal beyond the sol
p
period is in conflict with the Lash court s decision defendant's
continued acquiescence" to conspiracy. Continued defined is "
to

16

*5

maintain without interruption". It also is defined as "to resume (as
in a story) after an intermission" (Merriam-. Webster's Dictionary).
Petitioner asserts the Lash Court's "continued" references "to main­
tain without interruption", while the District court can only mean
"to resume () after an intermission", as they repeatedly concede
petitioner's withdrawal in 1999, and, according ionthe courts " rejoined" Apps.A; B

Pg 7; 25. Petitioner's withdrawal would certain­

ly fall short of "to maintain without interruption"

and even the

courts-' . unreasonable application would fall short; as a nine year
intermission cannot "negate" the fact that petitioner's withdrawal
was well beyond..the applicable sol period. Therefore it cannot "ne­
gate" the fact that a defendant who withdrawsuoutsi.de . the relevant
sol period has a complete, therfore viable, defense to prosecution.
Smith 133 S. Ct. 184 L, Ed. at 574. And

even if there is later cri­

minal conduct within the sol period, a defendant's conviction cannot
be based upon conduct that occurred.ibefore the sol date. Moody F. 3d
at 485(2020) .
In the Lash Court ruling^ Senior Circuit Judge Wellford dissented in
regards to defendant1 s Lash and Tommasi, respectively. He signifi­
cantly notes:
"A few months of employment is insufficient, in my view, to coun­
ter the fact he was disassociated with and withdrawn from all
conspirators." And, "[subsequent activity[] should be the subject of a separate indictment. I find no basis to 'meutralize
the fact of a long past withdrawal by reference to other ' wheeling,.and dealing' by Tommasi. I therefore would dissent and reverse
convictions of Lash and Tommasi."
In further contradiction

the Lash Court decided the defendants'

withdrawals were not beyond the applicable : sol period, while both
courts

concessions of petitioner's withdrawal was". beyond the ap17

plicable sol period. Petitioner asserts his withdrawal well exceeds
the combination of Lash and Tommasi's withdrawals

thus believes

the requisite weight should be applied in his case:, as his long
past withdrawal is precisely what the Supreme Court in Smith ruled
is beyond the applicable sol period and provides a complete.there­
fore viable-defense to prosecution.
Ehev.-.bufcdeh: • for establishing an entitlement to an evidentiary
hearing is relatively light, and where there is a factual dispute,
the habeas court must hold an evidentiary hearing toedetermine the
truth of petitioner's claims, The courts abused their discretion
making decisions contrary to and unreasonably applying federal law
in order to deny petitioner relief, an

evidentiary hearing, or. CO A

when as- petitioner's motion and the files and records of the case
contain facts supporting his arguments, 28 U . S . C. §2255$) Martin v
United States 889 F. 3d 827, 832-33

835-36 (6th Cir 2018) .

Petitioner asserts these decisions in his case are of national lmd
portance:as.j if the courts

decisions stand, this could cause a re­

gressive shift promoting future unnecessary harm to defendants, It
would allow the lower courts to further violate the most basic of a
defendant s constitutional rights, ..using: these decisions to rule
contrary to, or unreasonably applying, and essentially nullifying,
clearly established federal law as determined by this Supreme Court.
The courts

decisions have so far departed from the accepted and

usual course of judicial proceedings it is imperative for this
Supreme Court to exercise their supervisory power in order to pre­
vent this regressive shift, and the future harm of others due to
further departure.using the ■"courts 1 decisions.
18

In summation

the law provides that a withdrawal beyond the applic­

able sol period is a complete therefore viable defense to prosecur
tion. The record clearly showed petitioner's withdrawal in 1999 was
plainly beyond the applicable sol period. The record is also clear
that counsel denied petitioner his right to present his affirmative
defense by denying its viability and failing to investigat e or assert petitioner's one affirmative defense

thus entirely failed to

^subject the prosecution.'s case to meaningful adversarial testing.
The record shows this infected petitioner's decision making process
causing him to plead guilty when counsel testifies

he really want-

ed to go to trial.
Though it was counsel’s duty and obligation to assert petitioner's
one affirmative defense, the government- who is a representative of
a sovereignty whose interest in a criminal prosecution is not to
win a case, but that justice shall be done, Berger v U.S. 295 U.S.
78, 88, 55 S. Ct. 629, 79 L. Ed 1314 (1935)- had evidence of peti­
tioner's affirmative withdrawal from the gang in 1999; and the tri­
al court was aware of petitioner's 2000 full confession, which is
an affirmative showing he withdrew from the conspiracy. Yet, having
this evidence, neither the government, nor the trial court, applied
the requisite weight the law requires for a withdrawal beyond the
applicable sol period. This denied petitioner his due process right
to fair and just pre-trial, trial

and sentencing proceedings, as

the court relied on materially inaccurate information, and he was
found guilty based in part upon pre-sol conduct, and was sentenced
based upon .pre-sol leadership conduct in violation of the law. This
led to additional, ..thus .prejudicial

19

time in prison.

Therefore, petitioner respectfully prays this Supreme Court will
remand petitioner's case, with clear instruction that petitioner's
withdrawal beyond the applicable sol period provides a complete
therefore viable defense to the prosecution, as they used pre-sol
conduct to obtain a convictionAnd, that even if petitioner's
guilt could have been^esfeablished by his conduct within the sol
period, petitioner's withdrawal was a viable defense asy.4t_.is 3 mit­
igating evidence with respect to sentencing, and::his,:pre-sol con­
duct, specifically his leadership positions, cannot be used to en­
hance his sentence.
Petitioner wholeheartedly thanks this Supreme Court for their time
and consideration in this very important matter. May God bless you,
and God bless America.

Sincerely,

Frank Cisneros
10132-040
Marianna F.C.I.
P.O.Box 7007
Marianna, FL
32447

20

